APPENDIX A

App. 1

SUPREME COURT
STATE OF CONNECTICUT

PSC-190454
THE BANK OF NEW YORK MELLON F/K/A THE BANK OF NEW YORK
AS TRUSTEE ON BEHALF OF CIT MORTGAGE LOAN TRUST 2007-1
v.
WILLIAM RUTTKAMP ETAL.
ORDER ON PETITION FOR CERTIFICATION TO APPEAL
The defendant Shlomit Ruttkamp's petition for certification to appeal from the
Appellate Court (AC 43974) is denied.

Shlomit Ruttkamp, self-represented, in support of the petition.
Peter A. Ventre, in opposition.
Decided May 12, 2020
By the Court
/si
L. Jeanne Dullea
Assistant Clerk - Appellate

Notice Sent: May 13, 2020
Petition Filed: May 4, 2020
Clerk, Superior Court, MMX-CV10-6001915-S
Hon. Edward S. Domnarski
Clerk, Appellate Court
Reporter of Judicial Decisions
Staff Attorneys’ Office
Counsel of Record

App. 2

APPENDIX B

App. 3

APPELLATE COURT
STATE OF CONNECTICUT
AC 43974
THE BANK OF NEW YORK MELLON F/K/A THE BANK OF NEW YORK
AS TRUSTEE ON BEHALF OF CIT MORTGAGE LOAN TRUST 2007-1

v.
WILLIAM RUTTKAMP, ETAL.

APRIL 23, 2020

ORDER
THE MOTION OF THE PLAINTIFF-APPELLEE, FILED MARCH 10, 2020,
TO DISMISS, HAVING BEEN PRESENTED TO THE COURT, IT IS HEREBY
ORDERED GRANTED AS THE APPEAL IS MOOT BECAUSE TITLE TO THE
SUBJECT PROPERTY VESTED IN THE PLAINTIFF ON JANUARY 8, 2020.

BY THE COURT,
/S/
SUSAN REEVE
DEPUTY CHIEF CLERK
NOTICE SENT: APRIL 24, 2020
COUNSEL OF RECORD
HON. EDWARD S. DOMNARSKI
CLERK, SUPERIOR COURT, MMX-CV10-6001915S

194016

App. 4

APPENDIX C

App. 5

ORDER 418032
DOCKET NO: MMXCV106001915S

SUPERIOR COURT

THE BANK OF NEW YORK MELLON F/K/
A THE BANK OF NEW
V.
RUTTKAMP, WILLIAM Et A1

JUDICIAL DISTRICT OF MIDDLESEX
AT MIDDLETOWN
2/11/2020

ORDER
ORDER REGARDING:
01/16/2020 244.00 MOTION FOR ORDER
The foregoing, having been considered by the Court, is hereby:
ORDER: GRANTED
The court has reviewed the order of the Connecticut Supreme Court in PSC 190319, dated February 5,
2020. The court concludes that there was no appellate stay in effect on the January 6, 2020 law day.
None of the defendants redeemed on their law day. Title to the subject premises vested in the plaintiff on
January 8, 2020.
Judicial Notice (JDNO) was sent regarding this order.
418032
Judge: EDWARD S DOMNARSKI
Processed by: Suphi Philip
This document may be signed or verified electronically and has the same validity and status as a document with a physical
(pen-to-paper) signature. For more information, see Section I.E. of the State of Connecticut Superior Court E~Services
Procedures and Technical Standards (https://jud.ct.gov/extemal/super/E-Services/e-standards.pdf), section 51-193c of the
Connecticut General Statutes and Connecticut Practice Book Section 4-4.

MMXCV106001915S

2/11/2020

App. 6

Page 1 of 1

ORDER 418032
DOCKET NO: MMXCV106001915S

SUPERIOR COURT

THE BANK OF NEW YORK MELLON F/K/
A THE BANK OF NEW
V.
RUTTKAMP, WILLIAM Et A1

JUDICIAL DISTRICT OF MIDDLESEX
AT MIDDLETOWN
2/11/2020

ORDER
ORDER REGARDING:
01/29/2020 247.00 MOTION TO DISMISS PB 10-30
The foregoing, having been considered by the Court, is hereby:
ORDER: DENIED
This case has gone to final judgment which has been affirmed on appeal.
Judicial Notice (JDNO) was sent regarding this order.
418032
Judge: EDWARD S DOMNARSKI
Processed by: Jennifer Rowe
This document may be signed or verified electronically and has the same validity and status as a document with a physical
(pen-to-paper) signature. For more information, see Section I.E. of the State of Connecticut Superior Court E-Services
Procedures and Technical Standards (https://jud.ct.gov/extemal/super/E-Services/e-standards.pdf), section 51-193c of the
Connecticut General Statutes and Connecticut Practice Book Section 4-4.

MMXCV106001915S 2/11/2020

App. 7

Page 1 of 1

APPENDIX D

App. 8

DOCKET NO. MMX CV 10-6001915-S

SUPERIOR COURT

THE BANK OF NEW YORK MELLON
F/K/A THE BANK OF NEW YORK AS
TRUSTEE ON BEHALF OF CIT MORTGAGE
LOAN TRUST 2007-1

J.D. OF MIDDLESEX

V.

AT MIDDLETOWN

WILLIAM J. RUTTKAMP, ET AL.

FEBRUARY 27, 2012
ORDER

The plaintiff filed a motion for summary judgment (No. 119.00) seeking judgment as
to the liability of the defendant Shlomit Ruttkamp. The defendant opposes the summary
judgment motion on grounds that the plaintiff commenced suit in its trade name or corporate
brand (The Bank of New York Mellon), rather than its registered name (The Bank of New
York Mellon Corporation), and that a trade name or corporate brand is not a legal entity with
capacity to sue. The defendant claims that the court therefore lacks subject matter jurisdiction
to decide the merits of the plaintiff’s claim.
The plaintiff does not dispute that “The Bank of New York Mellon” is a coiporate
brand name, nor does it claim that the name is a mere misnomer or description error used in
filing suit. To the contrary, in its memorandum of law in support of its motion for summary
V>

'O

judgment, the plaintiff plainly acknowledges that “The Bank of Ne\g YofiP Mellon is the
t!

-n

coiporate brand of The Bank of New York Mellon Corporation ancfinay a)|p be us^d as a
•% i

—.

rr-. ***

_J

generic term to reference the corporation as a whole or its various sub§i4!aries£}
"

o
*T1

-F

ro
-D

App. 9

//?'

•

.

. js ._i

m
o

“[A] party must have standing to assert a claim in order for the court to have subject
matter jurisdiction over the claim.” (Citation omitted.) Webster Bank v. Zak, 259 Conn. 766,
774, 792 A.2d 66 (2002). The question of subject matter jurisdiction can be raised by any of
the parties, or by the court sua sponte, at any time. Id

“[WJhenever it is found after

suggestion of the parties or otherwise that the court lacks jurisdiction of the subject matter, the
judicial authority shall dismiss the action.” Practice Book § 10-33; Burton v. Dominion
Nuclear Connecticut, Inc., 300 Conn. 542,550, 23 A.3d 1176 (2011).
“It is elemental that in order to confer jurisdiction on the court the plaintiff must have
an actual legal existence, that is he or it must be a person in law or a legal entity with legal
capacity to sue. ... Although a corporation is a legal entity with legal capacity to sue, a
fictitious or assumed business name, a trade name, is not a legal entity; rather, it is merely a
description of the person or corporation doing business under that name.... Because the trade
name of a legal entity does not have a separate legal existence, a plaintiff bringing an action
solely in a trade name cannot confer jurisdiction on the court.” (Citations omitted; internal
quotations marks omitted.) America’s Wholesale Lender v. Pagano, 87 Conn.App. 474, 866
A.2d 698 (2005).
Subject matter jurisdiction cannot be conferred when an action is instituted under a
corporate brand name because a brand name is not a legal entity with capacity to sue. The
plaintiff brought this suit under its brand name and, therefore, it has no standing to sue.
In the absence of standing on the part of the plaintiff, the court has no jurisdiction.
Accord Coldwell Banker Manning Realty, Inc. v. Computer Sciences Corp., Superior Court,

2
App. 10

judicial district of Hartford, Docket No. HHDCV030825180S (November 12,2010, Sheldon,
J.) (51 Conn.L.Rptr. 10); Century 21 Access America v. McGregor-McLean, Superior Court,
judicial district of Fairfield, Docket No. CV044000764 (July 20, 2005, Doherty, J.) (39
Conn.L.Rptr. 639).
For these reasons, the plaintiff’s motion for summary judgment is denied and the court
hereby dismisses this action for lack of subject matter jurisdiction.
SO ORDERED.
Lisa Kelly Morgan, Judgi

3
App. 11

APPENDIX E

App. 12

THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF CONNECTICUT

Keyin Worth
Plaintiff,
v.

Docket No. 3:18-cv-00662

Bank of New York Mellon Corporation, et al

NOTICE OF REMOVAL

Defendant

TO:

THE HONORABLE JUDGES OF THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF CONNECTICUT
Pursuant to 28 U.S.C. §§ 1332, 1441 and 1446 the Defendants hereby remove the above-

captioned lawsuit from the Superior Court for the State of Connecticut, District of Waterbury, at
Waterbury to the United States District Court for the District of Connecticut. As grounds for the
removal of this case, the Defendants state as follows:

BACKGROUND
1.

On or about March 21, 2018, Plaintiff filed suit in the Superior Court for the

District of Waterbury, State of Connecticut, in a case entitled Keyin T. Worth v. The Bank ofNew
York Mellon Corporation, et al, Case No. UWY-CV18-5021612-S (the “State Court Action”).
2.

The first Defendant is alleged to have been served with process on March 19,

2018 and again on April 18, 2018.
3.

Pursuant to 28 U.S.C. § 1446(a), a complete copy of all process received by

Defendants in the State Court Action.

App. 13

4.

Pursuant to 28 U.S.C. § 1446(b), this Notice of Removal is timely because it has

been filed within 30 days after the first Defendant’s receipt of the Summons and Complaint.
5.

This Court is the district and division “embracing the place where [the State

Court] action is pending.” 28 U.S.C. § 1441(a).

DIVERSITY JURISDICTION EXISTS
6.

This Court has original diversity jurisdiction pursuant 28 U.S.C. § 1332, because

this action is between citizens of different states and the amount in controversy exceeds the sum
or value of $75,000.00, exclusive of interest, costs and attorney fees.
7.

Plaintiff. For purposes of diversity jurisdiction, a person is a citizen of the state in

which he or she is domiciled. Newman-Green, Inc. v. Alfonzo-Larrain, 490 U.S. 826, 828
(1989). “[Djomicile is established by physical presence in a place in connection with a certain
state of mind concerning one’s intent to remain there.” Mississippi Band of Choctaw Indians, v.
Holyfield, 490 U.S. 30, 48 (1989). Plaintiff is a resident of New Haven County, Connecticut.
(-See Compl. at f 3.) Plaintiff does not allege that she has any intention of leaving Connecticut.
(See Compl., generally.) Therefore, upon information and belief, Plaintiff is domiciled in the
State of Connecticut.
8.

The Bank of New York Mellon Corporation ('“BNYMC”'): BNYMC is a

Delaware corporation with its principal place of business located in the State of New York.
Therefore, BNYMC is a citizen of Delaware and New York within the meaning of 28 U.S.C.
§ 1332(c).
9.

Thus, complete diversity exists because Plaintiff is a citizen of Connecticut, and

Defendant is a citizen of other states.

App. 14

10.

The amount in controversy exceeds the sum or value of $75,000.00, exclusive of

interest, costs and attorneys’ fees. Plaintiffs claim for damages exceeds $75,000.00 for the
following reasons:
A.

Consistent with state court practices, Plaintiffs Complaint does not

specify the sum sought as damages. (See Compl.,).
B.

Nevertheless, Plaintiff seeks declaratory and equitable relief relating to a

Mortgage in the principal amount of $420,000.00. (See Compl.).
C.

When a plaintiff seeks specific performance, declaratory relief, or

injunctive relief, the amount in controversy is measured by the value of the object that is the
subject matter of the action. Wash. State Apple Adver. Comm’n, 432 U.S. 333, 347 (1977))
(holding “[i]n actions seeking declaratory or injunctive relief, it is well established that the
amount in controversy is measured by the value of the object of the litigation.”).
D.

In addition, Plaintiff also seeks to quiet title to real property located at 11

Village Drive, Wolcott, CT 06716. (See Compl.,28 and Count I). On April 9, 2015, the Court
entered an Order and Judgment of Strict Foreclosure in favor of BNYM in which the Court
found that “the fair market value of the property located at 11 Village Drive, Wolcott,
Connecticut, 06716 is $270,000.00. The Court also finds that the amount of the debt is
$578,660.98, and that the appraisal fee is $600.00. The total amount owed by the Defendant,
Keyin T. Worth, is therefore $579,260.98.”.

App. 15

E.

While Defendants deny the allegations in Plaintiffs Complaint, and denies

any liability to Plaintiff whatsoever, if those allegations are proven to be true, the amount in
controversy exceeds the sum or value of $75,000.00, exclusive of interest, costs and attorneys’
fees, because Plaintiff seek, among other things, declaratory and equitable relief in the form of
quieting title to property valued in the amount of at least $270,000.00.
WHEREFORE, Defendants hereby remove the State Court Action from the District of
Waterbury Superior Court, State of Connecticut, to this Court, and request that the Court take
jurisdiction of this civil action to the exclusion of any further proceedings in the State court.

DEFENDANTS,

Bv

418756
Christopher J Picard
McCalla Raymer Leibert Pierce, LLC
Thier Attorneys
50 Weston Street
Hartford, Ct. 06120
(860) 808-0606
Juris No. 101589

App. 16

CERTIFICATE OF SERVICE
This is to certify that a copy of the foregoing has been mailed, postage prepaid, by first
class mail on April 19,2018, to the following pro se parties:
Keyin Worth
11 Village Drive
Wolcott, CT 06716

418756
Christopher J Picard
Attorney for the Defendants

App. 17

APPENDIX F

App. 18

phone conversation On thursday 8/16/201247
Yahoo/lnhox

Shlomit Ruttkamp <rshiomit@yahoo.com>
Ta:kevin.heine@bnymellon.com
Thu, Aug 16, 2012 at 11:50 PM

Kevin heine,
The bank of new york mellon
One wall street, new york. Thursday august 16th
Dear kevin!
As of our conversation on thursday 8/16/2012 we discussed my situaton, I explained to you
briefly of my forclosure case I won the case for lack of subject matter jurisdiction. On feb. 27
2012.
The bank of new york mellon had the apportunity to appeal the order and they didn't in which
the time limitation expired.
I have reason to believe the bank of new york mellon was no longer the assigned or holder of the
note. You told me on the phone that you were willing to help me and that i should put in writing
my need. As i told you they are claiming to be individual bank of new york mellon. And they are
attaching several exhibits in their motion that shows their relation to your corporation but here
they are claiming that they are not the same bank of new york mellon, and that is where I need
your help.
They are attaching a copy of a website which they're claiming this is not the bank "websites" the
name is.
1. Bny mellon-AT a Glance 1Q12.1 would like you please to send me an affidavit stating that it is
only one bank of new york mellon
And the website is one of the many websites that the bank has and both corporations are related
the one in new york and the one in delaware.
2.1 will also need bank of new york mellon FORM S-3 AND FORM 10-K. of each year from 2006 to
2011.
3. New york state department of financial service history from the beginning of bank of new york
existing thru 2012 including the mergedin of the bank of new york and the mellon financial
corporation in 2007 thru the present.
And please send me any informatian. That you think might help in this situation.
I want to thank you in advance and just express to you how appreciative i am to you for all your
help, please E MAIL ma all this information at your earliest opportunity due to the time
restrictions in the court system.
It will be nice to have the affidavit notorized to secure and prevent doubts in court.
Sincerely: shlomit Ruttkamp
App. 19

P.O.BOX 611
WESTBROOK, CT 06498
I MAIL: rshlomit@ yahoo.com

Heine, Kevin <kevin.heine@bnymeHon.com>
To;rshlomit@yahoo.com
Fri, Aug 17, 2012 at 8:51 AM

Ms. Ruttkamp, thank you for your follow up email. It is still unclear to me who is claiming to be
Bank of New York Mellon, and how this relates to the foreclosure case you are referencing, and
why you would have to go to court with individuals who are claiming to represent a company
with our name.

Having said that, our website is at www.bnvmellon.com. I believe on that website is much of the
information you need - for example, our 10-K reports for the last 5 years are posted on the
website and here is the direct link to those reports http://www.bnymelIon.com/investorrelations/financialreports/formlOq.html

Here's the link to our "At a Glance" document - http://wwwcbnvmellon.com/news/factsheetpdf

In addition, you can go to the Securities and Exchange Commission's website for our public
filings. I believe the relevant page on their website that lists and provides access to these filings
is found by using this link - http://www.sec.gov/cgi-bin/browseedgar?action=getcompany&CIK=0001390777&owner=exclude&count=40&hidefilings=0
I don't think we can produce reports from New York State - you would have to get any such
reports that exist from the department itself.

I hope this helps.

App. 20

From: Shlomit Ruttkamp [mailto:rshlomit@yahoo.com]
Sent: Wednesday, August 22, 2012 8:53 AM
To: Heine, Kevin
Subject: Re: RE: RE: phone conversation On Thursday 8/16/2012

Dead kevin!
I know that you cannot write me an affidavit, can you at least write me the connection between
Bank of New York Mellon in New York, and bank of Mellon
In Delaware.
You show interest to help me on the phone, and as the spoke men of the bank
You certainly know the connection.
' I also need to know if the bank still assigned to my mortgage.
It will be big help for me. don’t let bunch of lawyers manipulated a lonely woman please.
Maybe you can have someone at the office that have the position to write me an affidavit.
Thank you
Shlomit.
Sent from Yahoo! Mail on Android

From: Heine, Kevin <kevin.heine@bnvmelion.com>:
To: Shlomit Ruttkamp <rshIomit@vahoo.com>:
Subject: RE: RE: RE: RE: phone conversation On Thursday 8/16/2012
Sent: Wed, Aug 22, 2012 4:02:59 PM
Bank of New York Mellon at 1 Wall Street is the same company as the one incorporated in
Delaware. We are headquartered at One Wall Street but incorporated in Delaware.

App. 21

APPENDIX G

App. 22

{

<

■

SHEET
INCORPORATING SECTION
CENCHAL INFORMATION

* 7 0

Incorporating Section

5 5 4 *

P.O. BOX 890
FRANCHISE TAX SECTION
P.O. BOX 7040
UNIFORM COMMERCIAL CODE
P.O. BOX 793

STATE OF DELAWARE
DEPARTMENT OF STATE
Jeffrey W. Bullock, secretary
DIVISION OF CORPORATIONS

John G. Townsend builoing
Duke of York street
DOVER, DELAWARE ! 9901

Dover, Delaware 19903

302/739 • 3073
Name Reservation
302/730-spoo
900/420 >9042
franchise Tax Section
302/739 "4223
UNIFORM COMMERCIAL CODE

302/739 • 4279

t******************************************************************************

5RV#: 121150398
Priority: 7

Agent: 9030670
Mail Code E

Package#: 000701554
10/22/12

File#:

Date:

xser: SCACJAL
Comments:
Lttn:

Lgent: AGENTS. AND CORPORATIONS ,. INC.
1201 ORANGE ST STE 600
ONE COMMERCE CENTER
DE
WILMINGTON
Items Included:

19801

Item Type

Copies

Invoice
Certificate
Image

001
001
001

******************************************************************************

App. 23

c

r*-**

(

State of Delaware
Secretary of State
Division of Corporations
Delivered 01:04 EM 02/09/2007
FZUZD 12:57 EM 02/09/2007
SJW 070147806 - 4299124 FILE

CERTIFICATE OF INCORPORATION
OF
THE BANK OF NEW YORK MELLON CORPORATION
FIRST.

The name of the Corporation is: The Bank ofNow York

Mellon Corporation.
SECOND.

The address ofthe Corporation's registered office in the State

of Delaware is Corporation Trust Center, 1209 Orange Street in the City of Wilmington,
County ofNew Castle. The name of its registered agent at sueh address is The Corporation
Trust Company.
THIRD.

The purpose of the Corporation is to engage in any lawful act

or activity for which corporations may be organized under fee General Corporation Law of
Delaware.
FOURTH.
-

The total number of shares which the Corporation shall have

authority to issue is 1,000 shares of capital stock, with a par value of $0.01 per share.
FIFTH.

The name and mailing address ofthe incorporator is C.

Andrew Geriacb, Sullivan & Cromwell LLP, 125 Broad Street, New York, New York 10004.
SIXTH.

A director ofdie Corporation shall rust be liable to the

Corporation or its stockholders or creditors for monetary damages for breach offiduciary
duty as a director, except to die extent such exemption from liability or limitation thereofis
not prmrfftwd »n<W the General Corporation Law of the State ofDelaware as the same exists
or may hereafter be amended. Any amendment, modification or repeal of the foregoing
sentence shall not adversely affect any light or protection of a director of the Corporation
hereunder in respect of any act or omission occurring prior to fire time of such amendment,
modification or repeal.
im3S«a953?5J

App. 24

Jf-

..

PAGE

1

(Ifie first State
I, JEFFREY W. BULLOCK, SECRETARY OF STATE OF TEE STATE OF
DELAWARE, DO HEREBY CERTIFY TEE ATTACHED IS A TRUE AND CORRECT
COPY OF THE CERTIFICATE OF INCORPORATION OF UTEE BANK OF NEW
YORK MELLON CORPORATION", FILED IN THIS OFFICE ON THE NINTH DAY
OF FEBRUARY, A.D. 2007, AT 12:57 O'CLOCK P.M.

l

4299124

8100

121150398
You aay verify this certificate
at coijr.dalatrare.gov/avthvar.shtol

\ Jeffrey W. Bullock, Secretary of State

NVACATION: 9932450
DATE: 10-22-12

(

X, Thft TTnH^rttgiiftd, for the purpose offorming a corporation under the laws
of the State ofDetaware, do mate, file and record this Certificate, and do certify that the
facts haem stated are true, and I have accordingly hereunto set my hand this eighth day of
February, 2007.

-2NYI253259S39S2

App. 26

APPENDIX H

App. 27

NYS Department of State
Division of Corporations
Search Results
The information contained in this database is current through May 14,2019.
Only one entity was found.
Entity Name
TFTR ft ANK OP NF.W YORK MELLON CORPORATION

The Entity Name column contains the entity names that were found based on
your search criteria. To display information for an entity, tab to the entity name
and press the enter key or click on the entity name. To revise your search
criteria, tab to Revise Search Criteria and press the enter key or click on
Revise Search Criteria. To start a new search, tab to New Search and press the
enter key or click on New Search.
Pftvkft Search Criteria New Search
ms j Privacy Policy | Accessibility Policy j Disclaimer ] E-cturn.tQ.DQS
Homepage | Contact Us

App. 28
4

r Af»i r/vr rMTITV

1/1

tnuiy information

5/15/2019

NYS Department of State
Division of Corporations
Entity Information
The information contained in this database is current through May 14,2019.
Selected Entity Name: THE BANK OF NEW YORK MELLON CORPORATION
Selected Entity Status Information
Current Entity Name: THE BANK OF NEW YORK MELLON CORPORATION
DOS ID#:
3516671
Initial DOS Filing Date: MAY 14,2007
NEW YORK
County:
DELAWARE
Jurisdiction:
FOREIGN BUSINESS CORPORATION
Entity Type:
Current Entity Status: ACTIVE
Selected Entity Address Information
DOS Process (Address to which DOS will mail process if accepted on behalf of the entity)
GENERAL COUNSEL
240 GREENWICH STREET
NEW YORK, NEW YORK, 10286
Chief Executive Officer
CHARLES SCHARF
240 GREENWICH STREET
NEW YORK, NEW YORK, 10286
Principal Executive Office
THE BANK OF NEW YORK MELLON CORPORATION
240 GREENWICH STREET
NEW YORK NEW YORK 10286
Registered Agent
NONE
This office does not record information regarding the
names and addresses of officers, shareholders or
i.

h.

»A/>mn«r*Ar>Ai I

rsnrrv iMev\»MATiraio*»

App. 29

AAfidFRRF5>4f!B935F949RC838...

1/2

Ul

1 <7

cniuy iiuumititiuii

directors of nonprofessional corporations except the
chief executive officer, if provided, which would be
listed above. Professional corporations must include the
name(s) and address(es) of the initial officers, directors,
and shareholders in the initial certificate of
incorporation, however this information is not recorded
and only available by viewing the certificate.
*Stock Information
# of Shares

Type of Stock
$ Value per Share
No Information Available

Stock information is applicable to domestic business corporations.
Name History
Filing Date Name Type
Entity Name
MAY 14, 2007 Actual
THE BANK OF NEW YORK MELLON CORPORATION
A Fictitious name must be used when the Actual name of a foreign entity is unavailable for use in New York
State. The entity must use the fictitious name when conducting its activities or business in New York State.
NOTE: New York State does not issue organizational identification numbers.
Search Results New Search
Services/Programs | Privacy Policy | Accessibility Policy | Disclaimer | Return to DOS
Homepage | Contact Us

App. 30
•.MUiuy^AtsoecAD^u

ckhttv

iMCAOi<ATir»kio-

APPENDIX I

App. 31

SK:

302

PG:

875

06/16/2010

QUIT CLAIM DEED

jQisa SR Teccodlo ^PC
SfitiometJ 5
547SMain<5t
■.'Jfefo&n, C?T06457

to-

Image:

1 of 3

>'

VO!. ?!
Doc ID:

000218840003 Type: LAN

■*302 -875-877
^^aSentS^Aa&e^otna> £j^*eette^t

<Q/k @%Zz£ I, WILLIAM J. RUTTKAMP of the Town of
Chester, County of Middlesex and State of Connecticut
For the consideration of No Dollars and other goods and valuable considerations,
Received to my full satisfaction of SCHLOhtlT RUTTKLAMP A/IC/A

SHLOMIT FrTTKAMP of the Town of Westbrook, County of
Middlesex and State of Connecticut
Does remise, release, and forever QlJl lCLAIIM UNTO THE SAID SCHLOMIT
RUTTKAMP A/K/A SHLOMIT RUTTKAMP, and unto her heirs and
assigns forever, all the right, title, interest, claim and demand whatsoever as 1 the said releasor
have or ought to have in or to
all that certain piece or parcel of land known as 510 McVeagh Road,
Westbrook, Connecticut more particularly bounded and described as follows:

SEE ATTACHED SCHEDULE “A” FOR LEGAL DESCRIPTION

Conveyance Tax Collecte
Joan S. Angeli
Westbrook Town

rerk
Vi
\

-D

>C
h. .

' I' i
V \\

CERTIFIED A TRUE COPY
RECORDED:
(o ' I U "flA l f
SIGNED: foZfab
TOWN CLERK, WESTBROOK, CT

App. 32

■

']

SK: 30?. PG:

875

06/16/2010

QUIT CLAIM DEKU

Image: 2 of 3

¥0i r«:.?

f? c l u

a*u£S&3M the premises, with alt the appurtenances, unto the said Releasee and unto
her heirs and assigns forever, so that neither I, the said releasor nor «ny heirs nor any other
under me or them shall hereafter have any claim, right or title in or to the premises,
persons
or any part thereof, but 1 am therefrom and they are by these presents forever barred and
excluded.
CMtemaej I have hereunto set my hand and seal this ^5” day of
, 2010A.D.
Signed, Sealet ^ and Delivered in presence of

----------------

WILLIAM'S. RUTTKA

/I ■/^/«

, 2010, before me, /?&■ *4
undersigned
On this the
day A V
officer, personally appeared William J. Ruttkamp, known to me (or satisfactorily proven) to be
the person whose name is subscribed tc. tfet v-Uliin instrument and adaowltdgel that he
executed the same .for the purposed therein contained, as his free act and deed.
i>&

CtWCer*^ 1 hereunto set my hand and official seal.

Notary Public
Commission Expires:
Latest address of Grantee:
51.0 McVeagb Road

Westbrook, CT 06498

->r* -I>
y

'r •

•

.•

App. 33

3K:

302 PG:

875

06/16/2010

QUIT CLAIM DEED

Image:

m 3 :j • ^ 2

3 of 3

11

Sc-hec/ttfe. A
AU that certain piece or parcel of land, situated on the northerly side of McVeagh
Road, sometimes called the De Wolf Road, in the Town of Westbrook, County of
Middlesex and State of Connecticut, bounded and described as follows:
Northerly: by land now or formerly of Leander S. Johnson and Margaret D.
Johnson, known ns Pratts Pond, SO feet, more or less;
Easterly: by land now or formorly of Leander S. Johnson and Margaret J>.
Johnson, being the center line of stone wall, 250 foot, more or less;
Southerly: by the taking line of the McVeagh Road or DeWolf Road, 190 feet, more
or less;
Westerly: by land now or formerly of George R. Zinser, Jr. and Esther D, Zinser,
Jr. and Esther D. Zinser, 200 feet, more or less.

Received for Record at Westbrook, CT
On 06/16/2010 At 1:32:12 pm
■v.

■s^. - . \ ‘
•f

v

~
■

; 3:" 5\

■■

.

■

-

•• •
su-. •
••

C ,
',

i

i

1

it
i

/

■

••

■

• •

T

App. 34

•

